CERTIFICATE OF SERVICE
I certify that on June 29, 2020 I served a complete copy of this Writ of
Certiorari on all parities, addressed as shown below. I declare under penalty
of perjury that the foregoing is true and correct.
Christopher A. Abel, Esquire
Willcox and Savage, P.C.
440 Monticello Ave
Suite 2200
Norfolk, VA 23510

o.

Signature

IfV/P fivrJCcj J

tvictorJj PovdWc

J24/<2G^<o>

l

I

eP
N/vrcjvrvifc

cf

A
KAITLYH ASHLEY VAN KEUREN
Notary Public
Commonwealth of Virginia
Registration No. 7786762
My Commission Expires Apr 30, 2022

